No. 21-144
SEATTLE'S UNION GOSPEL MISSION,
Petitioner,
v.

MATTHEWS. WOODS,
Respondent.

AFFIDAVIT
On this 2nd day of September, 2021, I, Anthony G. Lantagne, hereby certify
that this BRIEF OF AMICI CURIAE THE STATE OF MONTANA, MONTANA
ATTORNEY GENERAL AUSTIN KNUDSEN, AND OTHER SENIOR MONTANA
STATE ATTORNEYS IN SUPPORT OF PETITIONER, was delivered via Federal
Express Next Day Delivery to the Supreme Court of the United States. I further
certify that I have served by First Class mail and email this same date the required
copies to the parties listed below:
John J. Bursch
Counsel of Record for Petitioner
Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, DC 20001
jbursch@adflegal.org

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

Jennifer Denise Diskin
Counsel of Record for Respondent
QLaw Foundation ofWashington
101 Yesler Way #300
Seattle, WA 98104
denise@qlawfoundation.org

)
)

to-wit:

